U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

November 25, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Lamont Kortez Gaines v. United States, No. 20-294
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 3,
2020, and placed on the docket on September 8, 2020. This Court requested a response to the
petition on October 2, 2020. The government’s response is now due, after one extension, on
December 2, 2020. We respectfully request, under Rule 30.4 of the Rules of this Court, a further
extension of time to and including January 4, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner consents to this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0294
GAINES, LAMONT K.
USA

DANIEL MATTHEW SULEIMAN
COVINGTON & BURLING LLP
ONE CITYCENTER, 850 10TH STREET, NW
WASHINGTON, DC 20001
202-662-5811
DSULEIMAN@COV.COM

